                           SOCIAL SECURITY
                                    March 19, 2010



The Honorable Charles E. Grassley
Ranking Member
Committee on Finance
United States Senate
Washington, D.C. 20510

Dear Senator Grassley:

This is in response to your March 6, 2009 letter asking that we assist in determining
whether the Social Security Administration (SSA) has adequate oversight of its
representative payees. Thank you for bringing your concerns to my attention. As you
know, my office is committed to combating fraud, waste, and abuse in SSA’s operations
and programs. We provided much of the information you requested in our June 2009
Congressional Response Report, The Social Security Administration's Oversight of
Representative Payees. In that report, we stated we would perform a separate review
to determine whether certain payee-beneficiary relationships place beneficiaries at
added risk. The enclosed report provides the results of our assessment of the working
and living conditions of certain Social Security beneficiaries served by representative
payees who may have also been acting as employers or job placement/referral
services.

To ensure SSA is aware of the information provided to your office, we are forwarding a
copy of this report to the Agency. If you have any questions concerning this matter,
please call me, or have your staff contact Misha Kelly, Congressional and Intra-
Governmental Liaison, at (202) 358-6319.

                                               Sincerely,




                                               Patrick P. O’Carroll, Jr.
                                               Inspector General

Enclosure

cc:
Michael J. Astrue
             SOCIAL SECURITY ADMINISTRATION      BALTIMORE, MD 21235-0001
CONGRESSIONAL RESPONSE
       REPORT

   Representative Payees Who
  Employ Beneficiaries or Provide
      Employment Services
          A-13-10-11013




           March 2010
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                                               Background
OBJECTIVE
Our objective was to review the working and living conditions of Social Security
beneficiaries served by representative payees who may have also been acting as
employers or job placement/referral services.

BACKGROUND
Some individuals cannot manage or direct the management of their finances because of
their youth and/or mental or physical impairments. Congress granted the Social
Security Administration (SSA) the authority to appoint representative payees to receive
and manage these beneficiaries’ payments.1 A representative payee may be an
individual or an organization. SSA selects representative payees for Old-Age, Survivors
and Disability Insurance (OASDI)2 and/or Supplemental Security Income (SSI)3
beneficiaries 4 when representative payments would serve the individual’s interests.5

In a March 2009 letter, Senator Charles Grassley wrote, “As evidenced by recent media
reports on SSA beneficiaries with representative payees, individuals with mental
impairments can fall prey to mistreatment from others.” The Senator cited an article
highlighting a situation where a Texas-based business “. . . paid mentally disabled men
a pittance to work for an Iowa meat processing plant.” After learning of this situation,
Senator Grassley indicated the need to ensure SSA exerts adequate oversight of, and
has the commitment to continuously improve, its management of representative payees.

Senator Grassley requested assistance in determining whether SSA has adequate
oversight of its representative payees. We responded by providing the requested
information about SSA’s Representative Payment Program in a June 2009
Congressional Response Report, The Social Security Administration's Oversight of
Representative Payees. In our June 2009 report, we stated we would perform a




1
    Social Security Act §§ 205(j)(1)(A) and 1631(a)(2)(A)(ii); 42 U.S.C. §§ 405(j)(1)(A) and 1383(a)(2)(A)(ii).
2
 The OASDI program provides benefits to qualified retired and disabled workers and their dependents as
well as to survivors of insured workers. Social Security Act § 202 et seq., 42 U.S.C. § 402 et seq.
3
 The SSI program provides payments to individuals who have limited income and resources and who are
age 65 or older, blind, or disabled. 20 Code of Federal Regulations (C.F.R.) § 416.110.
4
  The term “beneficiary” is used generically in this report to refer to both OASDI beneficiaries and SSI
recipients.
5
    See Footnote 1.


Payees Who Employ Beneficiaries or Provide Employment Services (A-13-10-11013)                                1
separate review to determine whether certain payee-beneficiary relationships placed
beneficiaries at added risk. This report provides the results of our assessment of the
working and living conditions of certain Social Security beneficiaries.

We conducted site visits to review working and/or living conditions of certain
beneficiaries served by 48 payees. Beneficiaries included in our review were
(a) employed at the time of our site visits and/or (b) shared a residence with at least one
other beneficiary who was employed at the time of our review. We visited
342 beneficiaries while observing 66 beneficiary work sites and 80 beneficiary
residences. See Appendix B for our Scope and Methodology and Appendix C for our
Sampling Methodology.




Payees Who Employ Beneficiaries or Provide Employment Services (A-13-10-11013)            2
                                                  Results of Review
For the beneficiaries served by the 48 representative payees included in our review
(see Table 1), we found the work conditions were adequate. With the exception of one
beneficiary residence, we found beneficiaries’ living conditions were also adequate.
Recently, SSA implemented additional monitoring of payees that also serve as
employers.

                         Table 1: Representative Payees
              Possible Employers or Job Placement/Referral Services

                                               Number of          Number of
                               Number of       Beneficiary        Beneficiary
                                Payees         Worksites          Residences
                Region
                               Reviewed         Observed           Observed
           Boston                  3                3                  6
           New York                2                3                  5
           Philadelphia            9               11                 15
           Atlanta                 7                8                 13
           Chicago                12               19                 19
           Dallas                  4                6                  5
           Kansas City             3                6                  6
           Denver                  4                5                  5
           Seattle                 4                5                  6
            TOTAL                 48               66                 80

Beneficiaries’ Working Conditions

We visited 66 work sites. Based on observations and discussions held with
beneficiaries, we concluded the working conditions at all 66 locations were adequate.
For these work sites, nothing came to our attention that would lead us to believe the
beneficiaries’ work environment was not safe. Examples follow.

• At one work site in the Boston Region, we observed people working at clean, well-
  constructed tables. The facility also had a kitchen with refrigerators. This work site
  was clean and well-lit, and the building temperature was comfortable. Also, the
  beneficiaries were adequately supervised.

• In the Chicago Region, we visited a facility’s “sheltered workshop.” It was
  well-maintained, well-lit, and ventilated. We did not identify any obvious safety
  hazards. Also, we observed the rooms where the facility conducted life skills
  training—horticulture, dance, and computer. All the rooms were neat and clean.
  Adult employees supervised the beneficiaries in small groups.




Payees Who Employ Beneficiaries or Provide Employment Services (A-13-10-11013)             3
Beneficiaries’ Living Conditions

During our review, we also visited 80 residences where 636 beneficiaries lived. Based
on observations and discussions held with beneficiaries, we concluded the living
conditions at 79 residences were adequate. For these residences, nothing came to our
attention that would lead us to believe the beneficiaries were living in sub-standard
housing.

•   In the Philadelphia Region, the exterior of a home we visited was well-maintained.
    We observed the living room, dining room, laundry room, bathroom, and kitchen on
    the first floor. On the second floor, we observed the beneficiaries’ bedrooms. Each
    beneficiary’s room had a bed, two dressers, a closet, and a ceiling fan. The house
    was clean, and we did not observe any trash or clutter in the house. We also
    observed emergency telephone numbers displayed in the dining room.

•   In the Atlanta Region, we visited a home where the interior and exterior of the
    residence were well-maintained. The residence was clean, neat, and air
    conditioned. The house was sufficiently furnished, and its contents appeared to be
    in good condition. We observed the living areas were clean, neat, and uncluttered.
    Each beneficiary had his/her own bedroom. The residence had 24-hour supervision,
    with staff working in shifts.

In the Chicago Region, we visited a residence where we concluded the living conditions
were not adequate. This residence was a trailer where two beneficiaries, a husband
and wife, lived. We observed the exterior of the trailer was poorly maintained and had
dogs in cages on the porch. The trailer seemed to be unsanitary and was filled with
trash. There were other animals living inside the residence. Based on these conditions,
it appeared there were health and/or safety concerns for these beneficiaries. We
provided this information to local SSA field office staff for appropriate action.

On January 14, 2010, field office staff in the Chicago Region reported the completion of
a random review of the payee. Staff reported the payee was “...unorganized and
confused, but did not misuse benefits.” However, field office staff did not provide
information about the beneficiaries’ residence. It was recommended that a follow-up
review be performed in 6 months.




Payees Who Employ Beneficiaries or Provide Employment Services (A-13-10-11013)            4
SSA’s Efforts to Monitor Payees Who Serve As Employers

SSA has implemented additional monitoring of representative payees who serve as
employers. To support the integrity of the Representative Payment Program and
protect beneficiaries, the Agency created an initiative to conduct reviews of employers
that also act as payees. SSA plans to conduct 350 reviews of representative payees
that serve as both the representative payee and the employer for Social Security and/or
SSI recipients between December 10, 2009 and September 29, 2010.

SSA contracted with the National Disability Rights Network (NDRN) to provide
information about employer-payee relationships. These reviews will be conducted by
57 State-designated Protection and Advocacy organizations. 6 NDRN will coordinate,
monitor, and collect information about the reviews performed by the Protection and
Advocacy organizations. As of December 11, 2009, SSA had identified
324 representative payee-employers for review.




6
 SSA reports the 50 States, the District of Columbia, and all U.S. territories have Protection and
Advocacy organizations whose mission is to protect individuals with disabilities.


Payees Who Employ Beneficiaries or Provide Employment Services (A-13-10-11013)                       5
                                                               Conclusions
With one exception, we concluded the working and living conditions for the Social
Security beneficiaries included in our review who were served by the 48 representative
payees acting as employers or job placement/referral services were adequate. We
continue to believe such payee-beneficiary relationships should be subject to special
monitoring. We believe SSA has acknowledged this added risk by recently
implementing a process to have NDRN visit specific employer-payees. The Agency
indicated it agreed “…that payees who are employers or are providing job
placement/referral services should continue to receive special oversight, especially
when they act as landlords. This will provide added protection to our most vulnerable
beneficiaries.” Given the vulnerability of these beneficiaries, it is imperative that
appropriate safeguards exist to ensure representative payees perform their duties, and
that such relationships do not disadvantage beneficiaries or place beneficiaries at
added risk.




Payees Who Employ Beneficiaries or Provide Employment Services (A-13-10-11013)           6
                                          Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sampling Methodology




Payees Who Employ Beneficiaries or Provide Employment Services (A-13-10-11013)
                                                                        Appendix A

Acronyms

 C.F.R.                        Code of Federal Regulations
 EIN                           Employer Identification Number
 NDRN                          National Disability Rights Network
 OASDI                         Old-Age, Survivors and Disability Insurance
 OIG                           Office of the Inspector General
 SSA                           Social Security Administration
 SSI                           Supplemental Security Income




Payees Who Employ Beneficiaries or Provide Employment Services (A-13-10-11013)
                                                                                      Appendix B

Scope and Methodology
Our review included a population of organizational representative payees serving
between 5 and 49 beneficiaries and individual representative payees serving between
5 and 14 beneficiaries in the contiguous 48 States as of April 2009. To accomplish our
objective, we:

•   Obtained an electronic data extract as of April 2009 of representative payees who
    could be (1) placing their beneficiaries with common employers (job placement
    services), (2) serving as job referral services, or (3) acting as employers to the
    beneficiaries they represent. To identify these payees, we applied certain screening
    requirements, including the number of beneficiaries served by payees; employer
    identification numbers (EIN); 1 and wage reporting data for beneficiaries. We
    identified

     1,222 organizational representative payees that served between 5 and
      49 beneficiaries and had EINs for beneficiaries’ reported wages that were
      different from the payees’ EINs (possible job placement/referral services);
     564 organizational representative payees that served between 5 and
      49 beneficiaries and had EINs for beneficiaries’ reported wages that were the
      same as the payees’ EINs (possible employers); and
     59 individual representative payees who served between 5 and 14 beneficiaries
      and had EINs for beneficiaries’ reported wages for the same employer (possible
      job placement/referral services or employers).

•   Randomly sampled 48 representative payees from the 3 groups listed above. Of the
    48 payees, 40 were organizations and 8 were individuals. From the 48 payees, we
    visited work sites and/or residences for 342 beneficiaries (see Appendix C for our
    Sampling Methodology).

•   Verified the identities of the representative payees and the beneficiaries they served.

•   Conducted discussions with 48 representative payees and 342 beneficiaries.

•   Visited 66 beneficiary work sites and 80 beneficiary residences.

•   Determined whether the working and living conditions of the selected beneficiaries
    served by the 48 representative payees were adequate.

1
  The EIN is a nine-digit number assigned by the Internal Revenue Service to sole proprietors,
corporations, partnerships, estates, trusts, and other entities for tax filing and reporting purposes. SSA
records employers’ EINs with the associated wage postings in the Master Earnings File.


Payees Who Employ Beneficiaries or Provide Employment Services (A-13-10-11013)                               B-1
We determined the computer-processed data used for this audit were sufficiently
reliable for their intended use. Further, any data limitations were minor in the context of
this assignment, and the use of the data should not lead to an incorrect or unintentional
conclusion. The electronic data used in our audit were primarily extracted from the
Master Beneficiary Record, Master Earnings File, Supplemental Security Record, and
Representative Payee System.

For the work sites and residences visited, with the exception of one beneficiary
residence, nothing came to our attention that would lead us to believe the beneficiaries’
(a) work environment was not safe and (b) living conditions were sub-standard.

The entities audited were the Offices of the Deputy Commissioners for Operations and
Retirement and Disability Policy. We performed our review in Baltimore, Maryland, from
July 2009 through January 2010. In addition, we performed work in Alabama,
Arkansas, Connecticut, Florida, Georgia, Idaho, Illinois, Iowa, Kansas, Massachusetts,
Maryland, Montana, New Mexico, New York, North Carolina, North Dakota, Ohio,
Oklahoma, Oregon, Pennsylvania, Rhode Island, Tennessee, Texas, Virginia, West
Virginia, and Wisconsin. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




Payees Who Employ Beneficiaries or Provide Employment Services (A-13-10-11013)          B-2
                                                                        Appendix C

Sampling Methodology
In April 2009, we obtained from the Social Security Administration’s (SSA)
Representative Payee System a list of approximately 8.5 million beneficiaries who had
an active representative payee. In addition, we obtained 62 million detailed earnings
records for each of the 8.5 million beneficiaries. From this file, we applied certain
screening requirements to identify representative payees who may also act as
employers or job placement/referral services. The screening requirements included the
number of beneficiaries served by payees; representative payees with an employer
identification number (EIN); and wage reporting data for beneficiaries. We
subsequently identified and reported the following three groups of representative
payees in our June 2009 Congressional Response Report, The Social Security
Administration's Oversight of Representative Payees:

 2,602 organizational representative payees that could be serving as job placement or
   referral services;

 963 organizational representative payees that could be serving as employers to the
   beneficiaries they represent; and

 113 individual representative payees who could be serving as job placement
   services, job referral services, or employers to the beneficiaries they represent.

For our current review, we refined the three populations with various sampling
attributes, such as the number of beneficiaries in the payee’s care and beneficiaries
working in Calendar Year 2009. Based on additional criteria, we selected our samples
from the following groups of representative payees:

   1,222 organizational representative payees that served between 5 and
    49 beneficiaries and had EINs for beneficiaries’ reported wages that were different
    from the payees’ EINs (possible job placement/referral services);
   564 organizational representative payees that served between 5 and
    49 beneficiaries and had EINs for beneficiaries’ reported wages that were the same
    as the payees’ EINs (possible employers); and
   59 individual representative payees who served between 5 and 14 beneficiaries and
    had EINs for beneficiaries’ reported wages for the same employer (possible job
    placement/referral services or employers).




Payees Who Employ Beneficiaries or Provide Employment Services (A-13-10-11013)          C-1
From these 3 sampling frames, we selected a total of 50 representative payees for
review. First, we selected 20 organizational representative payees that could have
been serving as job placement or job referral services. For the second sampling frame,
we selected 20 organizational representative payees that could have been serving as
employers for the beneficiaries they represented. Finally, we selected 10 individual
representative payees who could have been serving as job placement/referral services
or employers to the beneficiaries they represented.

Of the 50 representative payees initially selected, we replaced 8 payees. The
replacement payees were selected because (1) beneficiaries were no longer employed
at the time of our review; (2) a group of beneficiaries did not work at the same location
or reside in the same residence; or (3) payees were beneficiaries’ family members.
Once we identified a payee for replacement, the replacement payee was not included in
our review if it met one of the conditions previously stated. There were two instances
where replacement payees met at least one of the conditions. As a result, two
replacement payees were not included in our review. Therefore, our review examined a
total of 48 representative payees.

We selected certain beneficiaries served by the representative payees for review. The
beneficiaries included in our review were (a) employed at the time of our site visits
and/or (b) shared a residence with at least one other beneficiary who was employed at
the time of our review. A total of 342 beneficiaries was included in our review.




Payees Who Employ Beneficiaries or Provide Employment Services (A-13-10-11013)        C-2
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
